APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Federal Circuit (July 16, 2020) ..................... 1a
Order of the United States District Court for the
Middle District of North Carolina
(July 8, 2019)........................................................ 18a
Judgment of the United States District Court for
the Middle District of North Carolina
(July 8, 2019)........................................................ 20a
Memorandum Opinion, Order, and
Recommendation of United States
Magistrate Judge (March 29, 2019) .................. 22a

App.1a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT
(JULY 16, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
AKEVA L.L.C.,
CounterclaimantAppellant,
v.
NIKE, INC., ADIDAS AMERICA, INC.,
Counter-DefendantsAppellees.
________________________
2019-2249
Appeal from the United States District Court
for the Middle District of North Carolina in
No. 1:09-cv-00135-LCB-JEP, Judge Loretta C. Biggs
Before: NEWMAN, O’MALLEY, and
CHEN, Circuit Judges.
CHEN, Circuit Judge.
Akeva L.L.C. (Akeva) owns a portfolio of footwear
patents including U.S. Patent Nos. 5,560,126 (’126
patent); 6,966,130 (’130 patent); 7,114,269 (’269 patent);
5380,350 (’350 patent); and 7,540,099 (’099 patent);
(collectively, the Asserted Patents). The ’130, ’269,

App.2a
’350, and ’099 patents all claim priority to the ’126
patent and are referred to as the Continuation Patents.
Asics filed for declaratory judgment that it does not
infringe the Asserted Patents and, in response, Akeva
countersued for patent infringement. Akeva also added
Nike, Inc., adidas America, Inc., New Balance Athletic
Shoe, Inc., and Puma North America, Inc. to the suit
alleging infringement of certain claims of the Asserted
Patents. The district court granted the Defendants
summary judgment of no infringement as to the ’126
patent, and invalidity as to the asserted claims of the
Continuation Patents. Akeva now appeals. Because
the district court correctly construed the claim term
“rear sole secured” to exclude conventional fixed rear
soles and also properly concluded that the Continuation
Patents are not entitled to claim priority to the ’126
patent, we affirm the district court’s grant of summary
judgment.
BACKGROUND
The Asserted Patents describe improvements to
athletic shoe rear soles and midsoles. The specification
of the ’126 patent describes the problem of rear sole
wear in which “the heel typically wears out much
faster than the rest of the athletic shoe, thus requiring
replacement of the entire shoe even though the bulk
of the shoe is still in satisfactory condition.” ’126
patent col. 1 ll. 30-33. “Another problem associated
with outsole wear is midsole compression.” Id. at col.
1 ll. 34-35. The ’126 patent specification explains that
“after repeated use, the midsole is compressed, . . .
thereby causing it to lose its cushioning effect.” Id. at
col. 1 ll. 37-39. “[I]n accordance with the purpose of the
invention,” the Summary of the Invention describes

App.3a
a shoe having “a rear sole detachably secured or
rotatably mounted to the heel support.” Id. at col. 3
ll. 25-42. The specification describes that midsole
compression can be alleviated by placing a graphite
insert into the mid-sole. Id. at col. 3 ll. 34-42. The
Abstract likewise describes the invention as “[a] shoe
includ[ing] a heel support for receiving a rotatable
and replaceable rear sole to provide longer wear. The
shoe may also include a graphite insert supported by
the heel support between the heel and the rear sole to
reduce midsole compression and provide additional
spring.” ’126 patent Abstract. The ’126 patent thus
discloses a solution to the problem with a conventional
fixed rear sole by replacing it with either a detachable
rear sole that can be replaced or a rear sole that is
rotatable.
The Continuation Patents claim priority to the ’126
patent through a chain of intervening continuations,
including the previously litigated U.S. Patent No.
6,604,300 (’300 patent). The ’300 patent is a continuation-in-part of the ’126 patent. In a previous appeal,
we found that the ’300 patent specification disclaimed
conventional fixed rear soles, thus preventing the
claims of the ’300 patent from encompassing shoes
with a conventional fixed rear sole. Akeva L.L.C. v.
Adidas-Salomon AG, 208 F. App’x 861, 864-65 (Fed.
Cir. 2006) (Akeva I ). In keeping with the disclosure
of the ’300 patent, we construed the claim term “rear
sole secured”—the same disputed claim term we confront here for the ’126 patent—to mean “selectively or
permanently fastened, but not permanently-fixed into
position.” Id. at 864. More specifically, this means
that the “rear soles that can be rotated or replaced,”
but they are not permanently fixed in position. Id. at

App.4a
865. As filed, the ’296 continuation patent had the same
specification as the ’300 patent, including the disclaimer, but Akeva amended the specification during
prosecution to circumvent the disclaimer language
relied on in Akeva I and filed an Information Disclosure Statement (IDS) disclosing our decision in Akeva I
and a statement explaining that it intended to rescind
that disclaimer from the ’296 patent. Asics Am. Corp.
v. Akeva L.L.C., 1:09–cv–00135, at 29-30 (M.D.N.C.
Mar. 29, 2019) (Asics). The remaining Continuation
Patents are continuations of the ’296 patent and either
included these amendments at filing or similarly
amended the specification during prosecution. Id.
In the present case, all of the accused shoes have
a conventional fixed rear sole, and, in a motion for
summary judgment, Defendants argued that the term
“rear sole secured” in claim 25 of the ’126 patent, just
as with the claims of the ’300 patent asserted in
Akeva I, could not include a shoe with a conventional
fixed rear sole. Claim 25 states:
25. A shoe comprising:
an upper having a heel region;
a rear sole secured below the heel region of
the upper; and
a flexible plate having upper and lower surfaces and supported between at least a portion
of the rear sole and at least a portion of the
heel region of the upper, peripheral edges of
the plate being restrained from movement
relative to an interior portion of the plate in
a direction substantially perpendicular to a
major axis of the shoe so that the interior
portion of the plate is deflectable relative to

App.5a
the peripheral edges in a direction substantially perpendicular to the major axis of the
shoe.
’126 patent claim 25 (emphasis added).
As an initial matter, the district court in the
present case declined to apply collateral estoppel
against Akeva’s proposed construction, in light of the
final decision in Akeva I as to the meaning of “rear
sole secured,” because the ’300 patent is a continuationin-part of the ’126 patent and the patents, although
very similar in content, do not share an identical
written description. Asics at 4. Nevertheless, after
thoroughly reviewing the ’126 patent specification,
the district court found that the ’126 patent disclaimed
conventional fixed rear soles from its invention, concluding that “rear sole secured,” in the context of the
’126 patent, means “rear sole selectively or permanently
fastened, but not permanently fixed into position.” See
id. at 18-19. In other words, the rear sole could be (1)
detachable or (2) attached and rotatable, but a conventional fixed rear sole is not within the scope of the
claim term. The district court thus entered summary
judgment that Defendants did not infringe the ’126
patent.
As for the Continuation Patents, the district court
recognized that Akeva had amended the specifications
to circumvent the disclaimer language this court
relied on for the ’300 patent in deciding Akeva I, in
an effort to claim shoes having conventional fixed
rear soles. Id. at 28-33. It was undisputed, however,
that if the Continuation Patents were not entitled to
claim priority to the ’126 patent, then the asserted
claims would be invalid under 35 U.S.C. § 102 due to
Nike’s sales of its accused shoes with conventional

App.6a
fixed rear soles in the United States more than one
year prior to the Continuation Patents’ filing dates.
Id. at 35-36. In light of this court’s Akeva I ruling that
the ’300 patent specification disclaimed and disavowed
conventional fixed rear sole shoes as well as the district
court’s own ruling that the ’126 patent specification
also disclaimed and disavowed conventional fixed rear
sole shoes, the district court concluded that Akeva’s
amendments to the specifications of the Continuation
Patents added new matter by broadening the scope of
the disclosure and therefore they could not claim
priority to the ’126 patent. Id. at 29-33. As a result,
because Nike’s accused product was on sale before the
filing date of the Continuation Patents, the Continuation Patents were “invalid under 35 U.S.C. § 102 to
the extent that they purport to include shoes with”
conventional fixed rear soles. Id. at 36.
Akeva timely appealed. We have jurisdiction
pursuant to 28 U.S.C. § 1295(a)(1).
DISCUSSION
I.
Claim construction is as a question of law that
may involve underlying fact inquiries. Teva Pharm.
USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 326 (2015);
Wi-LAN USA, Inc. v. Apple Inc., 830 F.3d 1374, 1381
(Fed. Cir. 2016). This court reviews the district court’s
claim construction based solely on intrinsic evidence
de novo, and reviews subsidiary fact findings for clear
error. Teva Pharm. USA, Inc. v. Sandoz, Inc., 789 F.3d
1335, 1337 (Fed. Cir. 2015).
Claim terms are given their ordinary and customary meaning, as would be understood by a person of

App.7a
ordinary skill in the art at the time of invention in
light of the claim language, the specification, and
prosecution history. Phillips v. AWH Corp., 415 F.3d
1303, 1312-17 (Fed. Cir. 2005). “A claim term should
be given its ordinary meaning in the pertinent context,
unless the patentee has made clear its adoption of a
different definition or otherwise disclaimed that
meaning.” Ancora Techs., Inc. v. Apple, Inc., 744 F.3d
732, 734 (Fed. Cir. 2014). The patent may provide
such a clear intent either expressly or by implication.
Luminara Worldwide, LLC v. Liown Elecs. Co., 814
F.3d 1343, 1353 (Fed. Cir. 2016).
The crux of the claim construction dispute in
this appeal is similar to an issue we confronted in
Akeva I as to the ’300 patent: whether the claim term
“rear sole secured,” this time in the context of the
’126 patent, encompasses conventional fixed rear
soles. We agree with the district court that the ’126
patent specification, like the related ’300 patent,
clearly disclaims conventional rear fixed soles and
therefore affirm its claim construction. As we stated
in SciMed Life Systems Inc. v. Advanced Cardiovascular Systems Inc., “[w]here the specification makes
clear that the invention does not include a particular
feature, that feature is deemed to be outside the reach
of the claims of the patent.” 242 F.3d 1337, 1341
(Fed. Cir. 2001); Ancora, 744 F.3d at 734.
As discussed above, numerous statements in the
specification make it clear a conventional fixed rear
sole is not within the scope of the invention. ’126
patent col. 1 l. 9-col. 3 l. 43. Under Field of Invention,
the patent describes “[t]he present invention” as
“relat[ing] generally to an improved rear sole for footwear and, more particularly, to a rear sole for an

App.8a
athletic shoe with an extended and more versatile
life and better performance in terms of cushioning
and spring.” Id. at col. 1 ll. 9-12. The Background of
the Invention section observes that, with conventional
athletic shoes, “the sole is attached to the upper as a
one-piece structure, with the rear sole being integral
with the forward sole.” Id. at col. 1 ll. 14-22. The
Background then disparages this conventional design
for two reasons: (1) outsole wear, particularly in the
heel, “requiring replacement of the entire shoe even
though the bulk of the shoe is still in satisfactory
condition,” and (2) midsole compression where the
midsole, after repeated use, loses its cushioning
effect. Id. at col. 1 ll. 23-42. The Background asserts
that “[t]o date, there is nothing in the art to address
the combined problems of midsole compression and
outsole wear in athletic shoes, and these problems
remain especially severe in the heel area of such
shoes.” Id. at col. 1 ll. 52-55.
The Summary of the Invention states that the
invention is a shoe that “includes an upper, a forward
sole attached to the upper, a heel support attached to
the upper, and a rear sole detachably secured or
rotatably mounted to the heel support.” Id. at col. 3
ll. 25-30 (emphasis added). The forward sole and heel
support are thus conventionally attached to the upper,
but the rear sole is not. In “another aspect” of the
invention, the Summary describes a shoe with a heel
support defining a “recess” and the rear sole, rather
than being conventionally fixed to the shoe, is instead
“receivable in the recess of the heel support. . . . ” Id.
at col. 1 ll. 34-42. The Abstract likewise focuses on
the rear sole being replaceable or rotatable, by
describing the invention as a shoe that “includes a

App.9a
heel support for receiving a rotatable and replaceable
rear sole to provide longer wear.” Id. at Abstract.
The Description of the Preferred Embodiments
section discloses a multitude of embodiments illustrated across 36 figures, with each embodiment
requiring either a detachable or rotatable rear sole
that is received within a recess of the heel support,
as the district court correctly found. Asics at 14. For
example, for the first disclosed embodiment, “[t]he
rear sole 28 is detachable from the heel support 26.”
’126 patent col. 5 l. 42. Alternatively, “[t]he rear sole
28 can also be rotatably mounted on the heel support
26.” Id. at col. 5 ll. 47-48. “The general features of the
first embodiment,” according to the patent, “will
apply to all embodiments unless otherwise noted.”
Id. at col. 8 ll. 9-12 (emphasis added). The patent
then stresses again that the purpose of the detachable
or rotatable rear sole is to compensate for rear sole
wear as well providing the user different performance
characteristics:
The ability to remove the rear sole serves
several purposes. The user can rotate and/or
invert the rear sole to relocate the worn section to a less critical area of the sole, and
eventually replace the rear sole altogether
when the sole is excessively worn. Additional
longevity in wear may also be achieved by
interchanging removable rear soles as
between the right and left shoes, which typically exhibit opposite wear patterns. However,
some users will prefer to change the rear soles
not because of adverse wear patterns, but
because of a desire for different performance
characteristics.

App.10a
Id. at col. 7 ll. 50-59. Moreover, the specification also
contemplates a rear sole that is rotatable without also
being removable. Id. at col. 8 ll. 32-34 (“[T]he same
benefits of this invention can be achieved if only a
portion of the rear sole is rotatable or removable.”);
col. 8 ll. 37-40 (“For example, this invention includes
the embodiment whereby a portion of the rear sole,
e.g., the center area, remains stationary while the
periphery of the ground-engaging surface rotates and/
or is detachable.”).
The overwhelming focus of the remainder of the
written description is devoted to different ways of
securing the rear sole within the recess of the heel
support, whether by press-fitting, protrusions and
slots, tongue and groove, locking ring, and/or spiral
grooves to screw the rear sole into the recess, all
described in the context of a rear sole that is removable
and/or rotatable. See, e.g., id. at col. 6 ll. 30-46, col. 6
l. 66—col. 7 l. 14, col. 7 ll. 35-49, col. 8 ll. 13-29, col. 8
ll. 41-67, col. 9 l. 45—col. 10 l. 4. In sum, given the
patent’s disparagement of conventional fixed rear
sole shoes which suffer from rear sole wear, its
characterization of the invention as a removable and/
or rotatable rear sole, and its uniform, lengthy disclosure of such rear soles, we agree with the district
court’s construction of “rear sole secured” to mean
“rear sole selectively or permanently fastened, but
not permanently fixed into position.”1 Asics at 18-19
(explaining further that this construction reflects the
core invention of overcoming the problem “of the rear
1 As the district court noted, this construction is consistent with
our construction of “secured” for the related ’300 patent in
Akeva I. Asics at 22-24.

App.11a
sole wearing out faster than the rest of the shoe” by
providing “rear soles that can be rotated or replaced”).
Akeva argues that the ’126 patent specification
did not disclaim conventional fixed rear soles because,
in its view, the specification discloses two distinct inventions that do not depend on each other: (1) rotatable
and/or detachable rear soles and (2) a flexible plate
in the midsole. We disagree, because the specification
consistently describes the invention as a shoe with a
detachable or rotatable rear sole that may additionally have a flexible plate (e.g., graphite insert). As
the Abstract makes clear, the invention is “[a] shoe
[that] includes a heel support for receiving a rotatable
and replaceable rear sole to provide longer wear. The
shoe may also include a graphite insert.” ’126 patent
Abstract (emphasis added). Moreover, when the
Summary of the Invention refers to a “graphite insert,”
it is combined with a “rear sole receivable in the
recess of the heel support,” not a conventional fixed
rear sole. Id. at col. 3, ll. 34-42. Akeva argues that
Figure 28’s depiction of one possible configuration of
the graphite insert supports its view. But Figure 28
is stated to be “an isometric view of a graphite insert
for use in the shoe of the present invention,” Id. at col.
4 ll. 48-49, and, as already explained, the disclosed
invention excludes conventional fixed rear soles, as
the “purpose of the invention” is to overcome rear
sole wear with a shoe having a detachable or rotatable
rear sole that may additionally include a graphite
insert. See SciMed Life Sys., Inc. v. Advanced Cardiovascular Sys., Inc., 242 F.3d 1337, 1343-44 (Fed. Cir.
2001) (finding that “the SciMed patents distinguish
the prior art on the basis of the use of dual lumens
and point out the advantages of the coaxial lumens

App.12a
used in the catheters that are the subjects of the
SciMed patents” and that the specification included
these dual lumens as part of “the present invention”);
Alloc, Inc. v. Int’l Trade Comm’n, 342 F.3d 1361, 1371
(Fed. Cir. 2003) (“[T]he ’907 specification indicates
that the invention is indeed exclusively directed toward
flooring products including play. Moreover, unlike
the patent-at-issue in Sunrace, the ’907 specification
also distinguished the prior art on the basis of play.”).
Akeva also relies on the specification’s statement
that “[t]he graphite insert also need not be used only
in conjunction with a detachable rear sole, but can be
used with permanently attached rear soles as well” as
proof that the specification contemplates a flexible plate
inserted into the midsole of a shoe with a conventional fixed rear sole. Appellant’s Br. at 30-31; ’126
patent col. 13 ll. 59-61. In Akeva I, we considered
essentially the same statement in the ’300 continuationin-part patent specification, which stated “[t]he flexible
region also need not be used only in conjunction with
a detachable rear sole, but can be used with permanently attached rear soles as well.” Akeva I, 208
F. App’x at 864-65 (quoting ’300 patent col. 10 ll. 1216). There, “when read in the context of the specification,” we held that “[t]he ‘permanently attached’
language in the specification contemplates shoes
with heels that are permanently fixed (cannot be
interchanged) but are rotatable.” Id. at 865. We find
that the same is true for the “permanently attached”
language in the ’126 patent, when read in the context
of its specification. Although the specifications of the
two patents are not identical, the ’126 patent, as we
observed above, describes an embodiment having a
rear sole that is rotatable but not removable, using

App.13a
language virtually identical to a passage in the ’300
patent we cited and relied on in Akeva I. Compare
’126 patent, col. 8 ll. 30-40, with ’300 patent, col. 7 ll.
35-42; see also ’126 patent, col. 3, ll. 29-30 (describing
“a rear sole detachably secured or rotatably mounted
to the heel support”). Accordingly, when read in the context of the ’126 patent specification, we agree with the
district court that the “permanently attached rear
soles” discussed are rotatable (but not removable)
rear soles. At no point in the ’126 patent specification
is a shoe with a conventional fixed rear sole contemplated as part of the invention.
Akeva also argues that the doctrine of claim
differentiation supports its position. We disagree.
Independent claim 25 requires the rear sole to be
“secured.” ’126 patent at claim 25. Claims 33 and 40
both depend from claim 25 and include a rear sole
“detachably secured” and a “means for detachably
securing the rear sole,” respectively. Id. at claims 33,
40. Akeva argues that claim 25 must be broader than
these dependent claims and therefore must include a
conventional fixed rear sole. But claim 25 encompasses
both non-detachable, rotatable rear soles as well
as detachable rear soles under the district court’s
construction, with which we agree. Akeva’s claim differentiation argument therefore is inapposite.
In view of the foregoing, we agree with the district court that the ’126 specification clearly disclaims
shoes with conventional fixed rear soles. Accordingly,
we agree with the district court’s ruling that the
Defendants’ accused products do not infringe the ’126
patent.

App.14a
II.
We now turn to whether the Continuation Patents
may properly claim priority to the ’126 patent. Akeva
does not dispute that the asserted claims of the Continuation Patents are invalid if they are not entitled
to the ’126 patent’s priority date. To claim priority to a
patent earlier in the priority chain, our case law
emphasizes that there must be a continuity of disclosure. Hollmer v. Harari, 681 F.3d 1351, 1355 (Fed.
Cir. 2012); Zenon Envtl., Inc. v. U.S. Filter Corp., 506
F.3d 1370, 1378 (Fed. Cir. 2007); Lockwood v. Am.
Airlines, Inc., 107 F.3d 1565, 1571-72 (Fed. Cir. 1997).
Thus, in this case, to be entitled to claim priority to
the ’126 patent, there must be adequate written
description support for the Continuation Patent claims
through the chain of applications leading back to the
’126 patent, which here includes the ’300 patent. The
disclaimer in the ’300 patent specifically excluded an
athletic shoe with the conventional fixed rear sole and
midsole insert from the patent’s scope, breaking any
continuity of disclosure for that embodiment. As a
result, the Continuation Patents cannot reach through
the ’300 patent to claim an earlier priority date for
claims directed to a shoe having a conventional fixed
rear sole.
As the district court correctly concluded, the
fundamental problem with Akeva’s priority argument
is that the ’300 patent disclaims and therefore does
not disclose shoes with conventional fixed rear soles.
Akeva I, 208 F. App’x at 865. Due to this break in the
priority chain, the asserted claims of the Continuation
Patents cannot claim priority to the ’126 patent for a
shoe having a conventional fixed rear sole. Hollmer,
681 F.3d at 1355; Zenon, 506 F.3d at 1378; Lockwood,

App.15a
107 F.3d at 1571-72. And as explained above, because
we agree with the district court that the ’126 patent
likewise disclaims and therefore does not disclose
shoes with a conventional fixed rear sole, Akeva’s
priority claim argument fails for this reason as well.
Akeva’s argument that the Continuation Patents
rescinded the prior disclaimers and that the Continuation Patents should thus be able to claim priority to the
’126 patent is not persuasive. Akeva has provided no
case law support for its position that a disclaimer in the
specification can be later rescinded and undone by
amendments to a subsequent continuation specification
without this new, expanded scope of the disclosure
constituting new matter in that subsequent continuation.
Akeva would have us look to Hakim v. Cannon
Avent Group, PLC, 479 F.3d 1313, 1317-18 (Fed. Cir.
2007), and Luv N’ Care, Ltd. v. Jackel International
Limited, 115 F. Supp. 3d 808, 819-21 (E.D. Tex.
2015), as examples of disclaimers of claim scope that
were successfully rescinded in a later-filed continuation
patent. But those cases involve disclaimers regarding
the claim scope made during prosecution, unlike the
specification disclaimer in the present case. In those
cases, the written description support for the asserted
claims always existed in the prior patents, and the
patent owner then in the subsequent application
filed a statement explicitly rescinding that prior-made
prosecution disclaimer. Hakim, 479 F.3d at 1317-18.
A disclaimer in the specification, on the other
hand, specifically excludes subject matter from the
invention possessed by the patentee. Moreover, we have
previously explained that removing limitations often
broadens the description. Anascape, Ltd. v. Nintendo of

App.16a
Am. Inc., 601 F.3d 1333, 1338 (Fed. Cir. 2010). In this
case, for example, rescinding the specification disclaimer would bring an entirely new embodiment into the
Continuation Patents that had originally been excluded
from the ’300 patent’s disclosure. Such an embodiment
would be “classical new matter” and is not within the
scope of the invention as disclosed in the prior patent.
Id. We therefore disagree with Akeva that it could
rescind the specification disclaimer in the ’300 patent
by amending the specifications of the subsequent
continuation patents, thereby adding new matter to
the Continuation Patents, and then reach through
that patent to the ’126 patent for priority. Moreover,
given our holding as to the specification disclaimer in
the ’126 patent, the asserted claims of the Continuation Patents cannot claim priority to the ’126 patent
for the separate, additional reason that the ’126
patent disclaimed and thus does not disclose a shoe
having a conventional fixed rear sole. The asserted
claims of the Continuation Patents thus are not
entitled to the ’126 patent’s priority date for that
reason as well.2
We agree with the district court that the ’300
patent broke the chain of priority for the asserted
claims of the Continuation Patents and that the Continuation Patents cannot claim priority to the ’126 patent.
2 Because we affirm the district court’s invalidity ruling as to
the Continuation Patents, we need not address the Defendants’
alternative argument that the Continuation Patents are invalid
because Akeva impermissibly added new matter to their specifications, and thus lacked adequate support for the asserted claims
at the time those continuation applications were filed. See 35
U.S.C. 132(a) (“No amendment shall introduce new matter into
the disclosure of the invention.”).

App.17a
As a result, because the parties have admitted that
the accused Nike shoe is prior art if the Continuation
Patents cannot claim priority to the ’126 patent, Asics
at 35-36, the asserted claims of the Continuation
Patents are invalid under the on-sale bar. Vanmoor v.
Wal-Mart Stores, Inc., 201 F.3d 1363, 1366-67 (Fed.
Cir. 2000).
CONCLUSION
We hold that the ’126 patent disclaimed a shoe
with a conventional fixed rear sole. As a result, such
a shoe is not within the scope of claim 25 of the ’126
patent. Further, the Continuation Patents cannot
claim priority to the ’126 patent for claims covering a
conventional fixed rear sole because the chain of
priority was broken by the ’300 patent. Thus, the
asserted claims of the Continuation Patents are anticipated. We have considered Akeva’s remaining
arguments and find them unpersuasive. The district
court’s grant of summary judgment is
AFFIRMED

App.18a
ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF NORTH CAROLINA
(JULY 8, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
________________________
ASICS AMERICA CORPORATION,
Plaintiff /
Counterclaim Defendant,
v.
AKEVA L.L.C.,
Defendant /
Counterclaim Plaintiff,
v.
NIKE, INC.; ADIDAS AMERICA, INC.;
NEW BALANCE ATHLETIC SHOE, INC.; and
PUMA NORTH AMERICA, INC.,
Third Party Defendants.
________________________
1:09CV135
Before: Loretta C. BIGGS, United States District Judge.
On March 29, 2019, the United States Magistrate
Judge’s Recommendation was filed, and notice was
served on the parties pursuant to 28 U.S.C. § 636.
Akeva L.L.C. filed objections, (ECF No. 322), within

App.19a
the time limit prescribed by Section 636. The Court
has reviewed the objections de novo and finds that they
do not change the substance of the United States
Magistrate Judge’s Recommendation, (ECF No. 316),
which is affirmed and adopted.
IT IS THEREFORE ORDERED that, with respect
to the ’126 patent, the term “rear sole secured” is
construed to mean “rear sole selectively or permanently
fastened, but not permanently fixed into position,”
which would not include conventional rear soles that
do not either detach or rotate.
IT IS FURTHER ORDERED that the Motion for
Summary Judgment, (ECF No. 298), and Supplemental
Motion for Summary Judgment, (ECF No. 304), are
GRANTED, and that Akeva L.L.C.’s Third Amended
Counterclaim for Patent Infringement is DISMISSED
with prejudice.
This, the 8th day of July 2019.
/s/ Loretta C. Biggs
United States District Judge

App.20a
JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF NORTH CAROLINA
(JULY 8, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
________________________
ASICS AMERICA CORPORATION,
Plaintiff /
Counterclaim Defendant,
v.
AKEVA L.L.C.,
Defendant /
Counterclaim Plaintiff,
v.
NIKE, INC.; ADIDAS AMERICA, INC.;
NEW BALANCE ATHLETIC SHOE, INC.; and
PUMA NORTH AMERICA, INC.,
Third Party Defendants.
________________________
1:09CV135
Before: Loretta C. BIGGS, United States District Judge.
For the reasons set out in an Order filed contemporaneously with this Judgment,

App.21a
IT IS ORDERED AND ADJUDGED that the
Motion for Summary Judgment, (ECF No. 298), and
Supplemental Motion for Summary Judgment, (ECF
No. 304), are GRANTED, and that Akeva L.L.C.’s
Third Amended Counterclaim for Patent Infringement
is DISMISSED with prejudice. All claims in this case
having now been either settled or dismissed, this
case is CLOSED.
This, the 8th day of July 2019.
/s/ Loretta C. Biggs
United States District Judge

App.22a
MEMORANDUM OPINION, ORDER,
AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
(MARCH 29, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
________________________
ASICS AMERICA CORPORATION,
Plaintiff /
Counterclaim Defendant,
v.
AKEVA L.L.C.,
Defendant /
Counterclaim Plaintiff,
v.
NIKE, INC.; ADIDAS AMERICA, INC.;
NEW BALANCE ATHLETIC SHOE, INC.; and
PUMA NORTH AMERICA, INC.,
Third Party Defendants.
________________________
1:09CV135
Before: Joi Elizabeth PEAKE,
United States Magistrate Judge.
This case involves the alleged infringement of
certain of Akeva L.L.C.’s patents related to the heels
of athletic shoes. The matter came before the Court

App.23a
for a claim construction hearing and for a hearing on
a Motion for Summary Judgment of Non-Infringement
or Invalidity. The Court stayed the case to allow for
further mediation and settlement discussions, and to
allow for filing of supplemental briefing following the
hearing. The stay was extended to allow for finalizing
of settlement. Most of the claims have now been
settled, and the only claims remaining are the third
party claims between Akeva as Counterclaim Plaintiff
and Nike, Inc. and adidas America, Inc. as Counterclaim Defendants. For the reasons that follow, the
Court will recommend construction of the disputed
claim term “rear sole secured” in the ’126 patent, and
will then recommend that Counterclaim Defendants’
Motion for Summary Judgment [Doc. #298, #304] be
granted and that this action be dismissed.
I.

Background

This action was originally filed by Asics America
Corporation against Akeva seeking a declaratory
judgment that its athletic shoes did not infringe ten
patents belonging to Akeva, and also seeking a declaratory judgment that these Akeva patents are invalid.
Akeva then counterclaimed for patent infringement
against Asics, and added patent infringement claims
against Nike, Adidas, New Balance Athletic Shoe,
Inc., and Puma North America, Inc. These newly-added
parties then counterclaimed against Akeva seeking a
declaration of non-infringement of the Akeva patents
and a declaration of invalidity of these patents.
Following discovery, the Parties narrowed their claims
to five asserted Akeva patents: the ’126 patent, the
’269 patent, the ’130 patent, the ’350 patent, and the
’099 patent. As noted above, many of the parties have
settled, and the only claims remaining are Akeva’s

App.24a
claims of patent infringement against Nike and Adidas
and the corresponding claim by Nike and Adidas for
declaratory judgment of non-infringement and invalidity of Akeva’s patents. The primary dispute in this
case is whether Akeva’s patents cover shoes with
conventional heels (permanently fixed in position) or
whether the patents cover only shoes with a heel
that is detachable or that rotates. In an earlier action
in this district (1:03CV1207), Akeva brought a patent
infringement action against Adidas alleging infringement of another, related patent. In that case, the
Court construed two Akeva patents (the ’300 and ’471
patents) to cover only shoes with rotatable or detachable rear soles. Akeva L.L.C. v. adidas America, Inc.,
No. 1:03CV1207, 2005 WL 6225278 (M.D.N.C. May 17,
2005), as supplemented, 365 F. Supp. 559 (M.D.N.C.
2005). In that case, the Court described the dispute
as follows:
[T]he patent discloses a rear sole “secured”
below the heel region of the shoe. The heel
region incorporates a flexible plate that is
supported at its periphery, has a void beneath
its interior area, and is capable of deflection
at its interior. Generally speaking, the flexible
plate acts like a trampoline, cushioning the
impact of the wearer’s heel and providing
extra spring. The ’300 Patent claims several
variations on this theme. Central to one of
the disputes is a feature wherein the heel
can be separated from the rest of the shoe
by the wearer, allowing a new heel to be
attached in its place. This allows the wearer
to replace the heel when it becomes worn or
when the wearer needs different cushioning

App.25a
and spring properties for a different activity,
such as playing basketball rather than running. There is also a feature that allows the
heel to be rotated by the wearer so that the
fast-wearing, ground-engaging portion located
at the very back of the heel is no longer
ground-engaging, thereby giving the heel a
longer life. The parties disagree whether
the “spirit” of the invention should be the
flexible plate, as Plaintiff contends, or the
removability and rotatability of the heel, as
Defendant argues.
Id. at *1. Following a claim construction hearing, the
Court construed the ’300 patent’s claim terms’ reference
to a rear sole “secured” to mean “a rear sole selectively
or permanently fastened, but not permanently fixed
in position.” Id. at *10. The Federal Circuit affirmed
that decision on appeal. Akeva L.L.C. v. adidas Am.,
Inc., 208 F. App’x 861 (Fed. Cir. 2006). Thus, shoes
with a permanently attached, non-rotatable sole do not
infringe the ’300 patent. All of the allegedly infringing
shoes in that case had a conventional rear sole
(not rotatable or detachable), so the determination
that the ’300 patent covered only soles that were not
permanently fixed in position (i.e., only soles that
were rotatable or detachable) meant that there was
no infringement of the ’300 patent.
The ’300 patent in that prior suit is related to the
five patents at issue in the present suit. In simplified
terms, the ’126 patent is a grandparent in that line,
the ’300 patent from the prior suit is a descendant of
the ’126 patent, and the remaining patents are, in
turn, descendants of the ’300 patent. Akeva contends
that Nike and Adidas infringed the ’126 patent and

App.26a
also infringed the later descendant patents (the ’269
patent, the ’130 patent, the ’350 patent, and the ’099
patent, referred to collectively as the “Continuation
Patents”).1
The Counterclaim Defendants previously moved
to dismiss Akeva’s claims based on collateral estoppel,
in light of the determination as to the ’300 patent in
the prior case. However, the Court concluded that as
to the ’126 patent, claim construction was required.
The Court noted that the claim construction of the
’300 patent in the prior suit would not control the
claim construction of the ’126 patent as a matter of
law, since context matters when construing claim
terms, and the ’300 patent was a later continuationin-part of the ’126 patent. In addition, with respect to
the remaining patents, all of which are continuation
patents of the ’300 patent, the Court concluded that
there were issues beyond the scope of collateral
estoppel, based on Akeva’s contention that it had
rescinded any disclaimers and specifically covered
non-rotatable, non-detachable heels in the Continuation
Patents. Those issues have now been fully briefed by
the parties in the claim construction briefing and the
Motion for Summary Judgment and supplemental
briefing, and are further addressed below.

1 Initially, the parties also raised claims related to a second family
of patents, involving continuation patents of the ’471 patent
from the prior suit. However, Akeva has elected not to proceed
with respect to those patents, so the only matters remaining
involve the patents set out above related to the ’300 patent.!

App.27a
II. Discussion
A. Claim Construction
The Court’s claim construction analysis is largely
controlled by the Federal Circuit’s decisions in Markman v. Westview Instruments, Inc., 52 F.3d 967 (Fed.
Cir. 1995), aff’d, 517 U.S. 370 (1996), and Phillips v.
AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005). Under
Markman, the Court must first determine the
“meaning and scope of the patent claims asserted to
be infringed.” Markman, 52 F.3d at 976. Then, the
Court must compare the properly construed claims to
the product that is accused of infringing. Id. The first
step is a matter of law and a decision for the court.
The Phillips case holds that in construing the claim
of a patent, the court should begin construing a claim
term by considering the plain and ordinary meaning
that a person skilled in the art would understand the
term to have. “Importantly, the person of ordinary
skill in the art is deemed to read the claim term not
only in the context of the particular claim in which
the disputed term appears, but in the context of the
entire patent, including the specification.” Id. at 1313.
Under Phillips, the Court begins with the claims
themselves, which may provide “substantial guidance
as to the meaning of particular claim terms. . . . To
begin with, the context in which a term is used in the
asserted claim can be highly instructive.” Id. at 1314.
In addition, “[o]ther claims of the patent in question,
both asserted and unasserted, can also be valuable
sources of enlightenment as to the meaning of a
claim term. . . . Because claim terms are normally used
consistently throughout the patent, the usage of a
term in one claim can often illuminate the meaning

App.28a
of the same term in other claims. Differences among
claims can also be a useful guide in understanding
the meaning of particular claim terms. . . . For example,
the presence of a dependent claim that adds a
particular limitation gives rise to a presumption that
the limitation in question is not present in the
independent claim.” Id. at 1314-15.
However, “[t]he claims, of course, do not stand
alone. Rather, they are part of ‘a fully integrated
written instrument,’ consisting principally of a specification that concludes with the claims. For that reason,
claims ‘must be read in view of the specification, of
which they are a part.’” Id. at 1315 (quoting Markman,
52 F.3d at 978-79). The Federal Circuit emphasized
that “the specification is always highly relevant to the
claim construction analysis. Usually, it is dispositive;
it is the single best guide to the meaning of a disputed
term.” Phillips, 415 F.3d at 1315 (internal quotation
omitted). “The importance of the specification in claim
construction derives from its statutory role. . . . In light
of the statutory directive that the inventor provide a
“full” and “exact” description of the claimed invention, the specification necessarily informs the proper
construction of the claims.” Id. “[T]he specification
may reveal a special definition given to a claim term
by the patentee that differs from the meaning it would
otherwise possess. In such cases, the inventor’s lexicography governs. . . . In other cases, the specification
may reveal an intentional disclaimer, or disavowal,
of claim scope by the inventor. In that instance as
well, the inventor has dictated the correct claim
scope, and the inventor’s intention, as expressed in
the specification, is regarded as dispositive.” Id.
(citing SciMed Life Sys., Inc. v. Advanced Cardio-

App.29a
vascular Sys., Inc., 242 F.3d 1337, 1343-44 (Fed. Cir.
2001)).
Thus, “[c]laim language governs claim interpretation” but claim terms “are construed in light of the
specification” and “[t]he ordinary meaning of a term
may be narrowed when interpreted in light of the
specification.” Akeva, 208 F. App’x at 863. In undertaking claim construction, “courts should watch the
often difficult line between construing the terms in
light of the specification and importing limitations
from the specification.” Akeva, 365 F. Supp. at 563.
“To avoid importing limitations from the specification
into the claims, it is important to keep in mind that
the purposes of the specification are to teach and
enable those of skill in the art to make and use the
invention and to provide a best mode for doing so.”
Phillips, 415 F.3d 1323. The Court must keep its
focus on “understanding how a person of ordinary
skill in the art would understand the claim terms.” Id.
B. General Description of the Asserted
Patents
The ’126 patent is the first in the line of the
asserted patents and is dated October 1, 1996. The
remaining patents at issue are descendants of the
’126 patent. The ’126 patent discloses “[a] shoe [that]
includes a heel support for receiving a rotatable and
replaceable rear sole to provide longer wear.” (Patent
’126 [Doc. # 292-1] at 2 (Abstract).) “The shoe may
also include a graphite insert supported by the heel
support between the heel and the rear sole to reduce
midsole compression and provide additional spring.”
(Id.) Akeva contends that the scope of the patent
includes shoes with a permanently attached and

App.30a
permanently fixed rear sole, as opposed to one that is
detachable and/or rotatable.
The ’300 patent from the prior suit is a continuation-in-part of that ’126 patent. As discussed above,
the Federal Circuit found that the ’300 patent “discloses
athletic shoes with extended life by improving the
rear sole such that the rear sole is rotatable, detachable, or both.” Akeva, 208 F. App’x at 864. The Federal
Circuit concluded that “one skilled in the art reading
the specification of the ’300 patent specification would
understand the term ‘secured’ as used in the ’300
patent to mean shoes with rear soles that are secured
to the shoe, but not permanently fixed.” Id. at 865.
The remaining asserted patents are all continuation patents of the ’300 patent. The ’269 patent is
dated October 3, 2006. It describes a shoe with “a
flexible member positioned below at least a portion of
the foot support region and above at least a portion of
the sole.” (Patent ’269 [Doc. # 292-2] at 2 (Abstract).)
“[T]he flexible member deflects in use in a direction
substantially perpendicular to a major longitudinal
axis of the shoe,” and thus acts like a trampoline.
The ’130 patent has an issue date of November 22,
2005. It describes a “shoe including a plate capable of
being deflected in a direction substantially perpendicular to the major longitudinal axis of the shoe.”
(Patent ’130 [Doc. #292-5] at 2 (Abstract).) The plate
“includes at least one rib integral with at least a portion
of the lower surface of the plate” and a “portion of the
rib is exposed to and visible from outside the shoe.”
(Id.)
The ’350 patent has an issue date of June 3, 2008.
It describes a shoe “having an open interior, a plate

App.31a
positioned between the bottom of the shoe and a portion of the upper, and at least one opening extending
from the bottom of the shoe into the midsole for
providing air communication with the interior of the
upper.” (Patent ’350 [Doc. #292-3] at 2 (Abstract).)
Finally, the ’099 patent has an issue date of June 2,
2009. It describes “[a] shoe including a heel support
integrally formed of a material different from the
midsole material of a rear sole for supporting the foot
of a user.” (Patent ’099 [Doc. #292-4] at 2 (Abstract).)
The heel support includes vertical walls that include
“at least one window through which at least a portion
of the midsole material of the rear sole is exposed to
and visible from the outside of the shoe.” (Id.)
C. The ’126 Patent’s Disputed Claim Terms
The primary disputed claim term of the ’126
patent is the term “rear sole secured” which appears
in multiple claims, asserted here as to Claims 25, 27,
and 31. Akeva argues that the Court should give this
term its plain and ordinary meaning or that it should
be construed to mean “a structure including a midsole
portion and a ground contacting outsole portion
attached to the shoe.” Defendants, on the other hand,
argue that this term should be construed to mean a
“rear sole selectively or permanently fastened, but
not permanently fixed into position.” The crux of this
dispute is whether the claims should be construed to
include a conventional permanently attached heel, or
whether the claim only covers shoes with a detachable
or rotatable heel.
In presenting these differing proposed constructions, the parties dispute at length the extent to which
the Court’s earlier construction of the ’300 patent

App.32a
claim terms, and particularly for the term “secured,”
should influence or control the construction of the
’126 patent claim terms. Defendants’ construction of
these claim terms follows the construction given to
“secured” in the ’300 patent litigation by the district
court and the Federal Circuit. Akeva contends that
because the prior construction was based on a different specification, the ’126 claim terms should not be
construed the same as the ’300 claim term. Given
this dispute, the Court first undertakes claim construction without reference to the prior action involving
the ’300 claim.
Claim 25 of the ’126 patent is the first disputed
claim. That claim describes a shoe having:
an upper having a heel region;
a rear sole secured below the heel region of
the upper; and
a flexible plate having upper and lower
surfaces and supported between at least a
portion of the rear sole and at least a portion
of the heel region of the upper, peripheral
edges of the plate being restrained from
movement relative to an interior portion of the
plate in a direction substantially perpendicular to a major axis of the shoe so that the
interior portion of the plate is deflectable
relative to the peripheral edges in a direction
substantially perpendicular to the major axis
of the shoe.
(’126 patent [Doc. #292-1] at 30.) Claim 27 incorporates
the shoe of Claim 25, but “including a heel support
having at least one wall extending downwardly from
the upper to at least partially define a recess, the

App.33a
rear sole secured in the recess of the heel support.”
(Id.) Claim 31 incorporates the shoe of Claim 27, but
“including a forward sole attached to the upper and
an arch bridge integral with the heel support and
adjacent the downwardly extending wall of the heel
support, the arch bridge attached to the upper and
extending between the heel support and the forward
sole.” (Id. at 31.) As set out above, in construing
these claims, the Court must consider how a person
skilled in the art would understand the terms when
read in the context of the entire patent, including the
specification.
The Abstract describes the invention as follows:
A shoe includes a heel support for receiving
a rotatable and replaceable rear sole to provide longer wear. The shoe may also include a
graphite insert supported by the heel support
between the heel and the rear sole to reduce
midsole compression and provide additional
spring.
(Id. at 2) (emphasis added). Thus, the description of
the invention is a shoe with a rotatable/replaceable
rear sole, and that shoe may also include a graphite
insert for additional spring.
The Background of the Invention states that the
invention “relates generally to an improved rear sole
for footwear and, more particularly, to a rear sole for
an athletic shoe with an extended and more versatile
life and better performance in terms of cushioning and
spring.” (Id. at 23.) The specification notes that
athletic shoes “typically include a laminated sole
attached to a soft and pliable upper,” and “[w]hen
laminated, the sole is attached to the upper as a one-

App.34a
piece structure, with the rear sole being integral with
the forward sole.” (Id.) Thus, the specification describes
typical athletic shoes with the rear sole “attached” to
the upper, as a “one-piece structure” and “integral”
with the forward sole. The specification then discusses two problems with the such athletic shoes: (1)
outsole wear, especially in the heel, “thus requiring
replacement of the entire shoe even though the bulk
of the shoe is still in satisfactory condition”; and (2)
midsole compression which causes the shoe to lose its
cushioning effect, especially in the heel area. (Id.)
The specification states that “[t]o date, there is
nothing in the art to address the combined problems
of midsole compression and outsole wear in athletic
shoes, and these problems remain especially severe
in the heel area of such shoes.” (Id.) (emphasis
added). The specification notes that “[b]y contrast
with dress shoes, whose heels can be replaced at
nominal cost over and over again, the heel area
(midsole and outsole) of an athletic shoe cannot be.”
(Id.) The specification explains that there are other
methods for replacing the entire outsole of a shoe,
but those methods are impractical for athletic shoes.
The specification further explains that there are other
methods for detachable or rotatable rear soles for
shoes with a relatively hard heel and outsole, such as
dress shoes, including a “detachable rear sole that is
secured to a heel of the shoe with a center screw that
penetrates the bottom of the rear sole and which is
screwed into the bottom of the heel of the shoe.” (Id.)
However, using a center screw would not work with
the softer materials used for athletic shoes, and
could result in gaps between the detachable and nondetachable elements of the shoe. (Id.)

App.35a
In addition, the Background notes that “there
have been attempts to deal with heel-center midsole
compression and/or to add spring to the user’s gait by
introducing various mechanical components into heel
construction,” but “never in combination with a rotating
or removable rear sole.” (Id.) (emphasis added). The
Background also points out that another problem “is
that athletic shoe purchasers cannot customize the
cushioning or spring in the heel of the shoe” and that
there are few options available if there is a need for
the left and right rear soles to be of a different height
and/or different cushioning or spring properties. (Id.
at 23-24.)
The Summary of the Invention describes the
invention as a shoe that “includes an upper, a forward
sole attached to the upper, a heel support attached to
the upper, and a rear sole detachably secured or
rotatably mounted to the heel support and including
at least one ground-engaging layer and a midsole
attached to the ground-engaging layer, the midsole
made of an elastomeric material that is more resilient
than the ground-engaging layer.” (Id. at 24.) This
summary thus describes parts of the shoe that are
permanently “attached,” such as the forward sole
attached to the upper and the heal support attached
to the upper, in contrast to the rear sole which is
“detachably secured or rotatably mounted.” (Id.) “In
another aspect,” the Summary describes the shoe as
having “an upper, a forward sole attached to the upper,
a heel support attached to the upper and having at
least one wall extending downwardly from the upper,
the wall at least partially defining a recess, a rear
sole receivable in the recess of the heel support and
having at least one ground-engaging surface, and a

App.36a
graphite insert either supported within the recess of
the heel support or by the wall of the heel support
between the rear sole and a heel portion of the upper.”
(Id.)
The Description of the Preferred Embodiments
sets out several possible embodiments for the invention.
Each embodiment includes either a detachable or
rotatable rear sole as described or as shown in the
associated drawings. In the first embodiment, “[t]he
forward sole and heel support are attached to the shoe
upper in a conventional manner, typically by injection
molding, stitching or gluing,” while “[t]he rear sole is
detachable from the heel support.” (Id. at 25.) “This
allows the user the ability to change rear soles
entirely when either the sole is worn to a significant
degree, or the user desires a different sole for desired
performance characteristics for specific athletic endeavors or playing surfaces. The rear sole can also be
rotatably mounted on the heel support. The rear sole
can be rotated to a plurality of positions (although only
four positions are possible in the FIG. 1A embodiment),
with a means provided to allow the user to secure the
rear sole at each desired position.” (Id.)
The ability to remove the rear sole serves
several purposes. The user can rotate and/or
invert the rear sole to relocate a worn section
to a less critical area of the sole, and eventually replace the rear sole altogether when
the sole is excessively worn. Additional
longevity in wear may also be achieved by
interchanging removable rear soles as
between the right and left shoes, which typically exhibit opposite wear patterns. However,
some users will prefer to change the rear

App.37a
soles not because of adverse wear patterns,
but because of a desire for different performance characteristics. For example, it is
contemplated that a person using this
invention in a shoe marketed as a “crosstrainer” may desire one type of rear sole for
one sport, such as basketball, and another
type of rear sole for another, such as running.
(Id.) Notably, after describing this first embodiment,
the specification states that “[f]urther embodiments
are disclosed that show the various ways of attaching
the rear sole to the heel support in accordance with
the invention. The general features of the first
embodiment, such as the shape of the rear sole and
the material composition of the shoe elements, will
apply to all embodiments unless otherwise noted.”
(Id.) (emphasis added). The specification further notes
that “[w]hile the above discussion is directed toward
a rear sole that rotates or separates in its entirety, it
is specifically contemplated that the same benefits of
this invention can be achieved if only a portion of the
rear sole is rotatable or removable. . . . For example,
this invention includes the embodiment whereby a
portion of the rear sole, e.g., the center area, remains
stationary while the periphery of the ground-engaging
surface rotates and/or is detachable.” (Id.)
Akeva points to language in the ninth embodiment
which it says supports its position that the specification
discloses a permanently attached and fixed rear sole.
The language states: “The graphite insert also need
not be used only in conjunction with a detachable
rear sole, but can be used with permanently attached
rear soles as well.” (Id. at 29.) However, this statement
comes after a discussion of the use of graphite inserts

App.38a
in detachable rear soles, and in the context of the
discussion makes clear that the graphite inserts can
be used with permanently attached rotatable rear soles
as well. Thus, as described in the ninth embodiment,
the graphite insert does not have to be used with a
detachable rear sole, but may also be used in conjunction with permanently attached but rotatable
rear soles as well.
Akeva also points to language in the third
embodiment that “[t]he means for securing the rear
sole is not limited; alternatives can include any of
the securing means described herein, or as used conventionally in analogous applications. Alternatives
can, of course, include integral locking mechanisms
all around the outer periphery of the heel, such as a
plurality of resilient protrusions on the rear sole
which engage a corresponding number of receiving
apertures on an overhanging portion of the heel
support. The existence of an overhanging portion
may require the tongue to be made of a resilient
material so that the rear sole can bend downwards
and clear the overhanging portion during assembly
or disassembly.” (Id. at 26 (8:56-67).) Akeva points
specifically to the language providing that the means
for securing the rear sole are not limited and “can
include any of the securing means described herein,
or as used conventionally in analogous applications.”
(Id.) However, this language does not describe rear
soles that are not removable or rotatable. Instead,
the context clearly describes means of securing the
removable or rotatable rear sole. Indeed, the description
specifically describes Figure 8A, with numerical
references to the various parts of the drawing, and
that drawing reflects a removable rear sole. Thus,

App.39a
the reference to various “securing means” as “used
conventionally in analogous applications” describes
ways of securing the removable or rotatable rear
sole, and cannot reasonably be read to refer to nonremovable, non-rotatable soles that are permanently
affixed or attached.
Akeva also argues that the ’126 patent has three
independent claims, 1, 19, and 25, and that Claims 1
and 25 are sufficiently broadly worded to cover a
shoe with a flexible plate including a rear sole that
is not limited to detachable/rotatable embodiments.
(Resp. Br. [Doc. #306] at 15-16.) Akeva also argues
that limiting Claims 1 and 25 to detachable or
rotatable soles would be inconsistent with other claims
of the ’126 patent, such as Claims 14 and 40, which
are narrower. (Id.) Claim 14 is the shoe of Claim 1
“including means for detachably securing the rear
sole below the heel region” and Claim 40 is the shoe
of Claim 25, “including means for detachably securing
the rear sole below the heel region.” (Id. at 30-31.) As
to both Claims 14 and 40, the claims specifically cover
a detachable rear sole, which would not conflict with
a reading of Claims 1 and 25 as covering both a
detachable or permanently attached rotatable rear
sole. Thus, the reading of the claims together does
not support the conclusion that “rear sole secured”
includes permanently affixed conventional rear soles,
and there are no claim differentiation issues in this
regard.
Finally, Akeva argues that Inventor Meschan’s
contemporaneous communications at the time of the
filing and issuance of the ’126 patent show that he
intended to include the flexible plate embodiment
with a conventional rear sole. (Resp. Br. [Doc. #300]

App.40a
at 21.) Extrinsic evidence, including expert and inventor
testimony, dictionaries, and learned treatises, can be
useful in shedding light on the relevant art, but is
“less significant than the intrinsic record in determining
‘the legally operative meaning of claim language.’”
Phillips, 415 F.3d at 1317. “[U]ndue reliance on extrinsic evidence poses the risk that it will be used to
change the meaning of claims in derogation of the
indisputable public records consisting of the claims,
the specification and the prosecution history, thereby
undermining the public notice function of patents.”
Id. at 1319 (internal quotation omitted); see also
Ariad Pharmaceuticals, Inc. v. Eli Lilly and Co., 598
F.3d 1336, 1351 (Fed. Cir. 2010). (noting that the
“hallmark of written description is disclosure. Thus,
‘possession as shown in the disclosure’ is a more
complete formulation. Yet whatever the specific articulation, the test requires an objective inquiry into
the four corners of the specification from the perspective of a person of ordinary skill in the art.”);
Howmedica Osteonics Corp. v. Wright Medical Technology, Inc., 540 F.3d 1337, 1346-47 (Fed. Cir. 2008)
(“Whether an inventor’s testimony is consistent with a
broader or narrower claim scope, that testimony is still
limited by the fact that an inventor understands the
invention but may not understand the claims, which
are typically drafted by the attorney prosecuting the
patent application. As we have explained, it is not
unusual for there to be a significant difference between
what an inventor thinks his patented invention is and
what the ultimate scope of the claims is after allowance
by the PTO. . . . We hold that inventor testimony as
to the inventor’s subjective intent is irrelevant to the
issue of claim construction.” (internal quotation omitted)).

App.41a
Ultimately, the Court construes the “rear sole
secured” claim term in the ’126 patent to mean “rear
sole selectively or permanently fastened, but not permanently fixed into position,” in light of how a person
of ordinary skill in the art would understand the
term in the context in which it is used and in light of
the specification. The problem to be solved, as described
above, supports this construction. The ’126 patent
describes an invention or inventions to solve the
combined problems of both midsole compression and
outsole wear, with a focus on the problem of the rear
sole wearing out before the rest of the shoe, requiring
replacement of the entire shoe when the bulk of the
shoe is still in satisfactory condition. This problem of
the rear soles wearing out faster than the rest of the
shoe is solved by rear soles that can be rotated or
replaced, which may also be used in combination
with a graphite insert.
In addition, the specification distinguishes other
shoes or portions of the invention that are permanently
and conventionally attached. For example, the specification notes the problems with ordinary athletic shoes,
which are described as having a laminated sole
attached to an upper as a “one-piece structure” with
the “rear sole being integral with the forward sole.”
This description of a one-piece structure with an
integral rear sole is in contrast to the disclosed
invention. Likewise, even in describing the invention,
the language in the embodiments describes the forward
sole and heel recess/receiving area as attached to the
shoes in a conventional manner, such as molding,
stitching, or gluing; in contrast, the rear sole is not
so described. Thus, the specification includes detailed
descriptions of permanently attached, conventionally

App.42a
affixed components of a shoe when so intended (i.e.,
traditional athletic shoes used to illustrate the problem
to be addressed; or the forward sole and receiving
heel area of the disclosed invention), but that language
is not used to describe the rear soles.
Third, the description disparages alternatives that
include a permanently attached, non-rotatable rear
sole. For example, the description specifically disparages athletic shoes in which the laminated sole is
attached to the upper as a one-piece structure, with
the rear sole being integral with the forward sole.
The specification notes that such shoes face a problem
of pronounced outsole wear on the heel, requiring
replacement of the entire shoe even if the rest of the
shoe is in satisfactory. In addition, the description
disparages other attempts to introduce mechanical
components into heel construction, specifically by
noting that these efforts were not “in combination
with a rotating or removable rear sole.”
Finally, the specification discloses only detachable
and/or rotatable rear soles in the description and in
the embodiment descriptions and drawings. Akeva
notes that embodiments are simply examples and
should not be used to limit the claim terms. It is
certainly true that it is “not enough that the only
embodiments, or all of the embodiments, contain a
particular limitation.” Thorner v. Sony Computer
Entm’t Am. LLC, 669 F.3d 1362, 1366 (Fed. Cir. 2012).
However, as noted above, in this case, the specification summarizes the invention as “a rear sole
detachably secured or rotatably mounted to the heel
support” or “a rear sole receivable in the recess of the
heel support,” and the specification also describes the
first embodiment where “[t]he rear sole is detachable

App.43a
from the heel support” or where “[t]he rear sole can
be rotatably mounted on the heel support.” Most
notably, the specification also includes the following
language: “[t]he general features of the first embodiment, such as the shape of the rear sole and the
material composition of the shoe elements, will apply
to all embodiments unless otherwise noted.” Thus, by
its express terms, the specification describes the
invention and the first embodiment as covering
rotatable and/or detachable rear soles, and disclaims
all embodiments other than as set out in the first
embodiment “unless otherwise noted.” As discussed
above, none of the other embodiments “otherwise
note” by description or drawing a non-detachable,
non-rotatable sole.
The Federal Circuit has repeatedly held that
“[w]here the specification makes clear that the invention does not include a particular feature, that feature
is deemed to be outside the reach of the claims of the
patent, even though the language of the claims, read
without reference to the specification, might be considered broad enough to encompass the feature in
question.” SciMed Life Sys., Inc., 242 F.3d at 1341; see
also Openwave Sys., Inc. v. Apple Inc., 808 F.3d 509,
513 (Fed. Cir. 2015) (noting that disavowal can happen
where the specification makes clear that the invention does not include a particular feature, and repeated
derogatory statements about a particular embodiment reasonably may be viewed as a disavowal).
Thus, even absent consideration of the prior decision involving the ’300 patent, the Court concludes
that the “rear sole secured” claim terms of the ’126
patent must be construed as set out above, in light
of how a person of ordinary skill in the art would

App.44a
understand the claim language in the context of the
specification, and in light of the language of the
specification which does not disclose and instead
clearly disparages, distinguishes, and disavows nondetachable, non-rotatable rear soles.
Moreover, the Court further finds that this construction is consistent with the construction of
“secured” given to the claim term of the ’300 patent
in the earlier litigation. In this regard, the Court
does find that there is merit to construing the same
claim terms similarly in related patents. See NTP,
Inc. v. Research In Motion, Ltd., 418 F.3d 1282, 1293
(Fed. Cir. 2005) (“Because NTP’s patents all derive from
the same parent application and share many common
terms, we must interpret the claims consistently across
all asserted patents.”); Omega Eng’g, Inc. v. Rayteck
Corp., 334 F3d. 1314 (Fed. Cir. 2003) (“The disputed
term ‘to outline’ is the same throughout all five
patents in the genealogy, including the ’880 and ’678
patents. The patentee made a clear and unmistakable
disclaimer of claim scope in its prosecution of the
parent ’880 patent, and we presume, unless otherwise
compelled, that the same claim term in the same
patent or related patents carries the same construed
meaning.”). In the present case, not only are these
two patents related, the ’300 patent fully incorporated
the ’126 patent. (’300 Patent [Doc. #292-6] at 1:10-13.)
Therefore, prior conclusions regarding the ’300 patent
further support the Court’s conclusions regarding the
’126 patent.
In the earlier litigation, this Court considered a
similar dispute regarding the ’300 patent. In that case,
the parties disagreed “whether the ‘spirit’ of the invention should be the flexible plate, as [Akeva] contends,

App.45a
or the removability and rotatability of the heel, as
[Adidas] argues.” Akeva, 2005 WL 6225278. The
Court considered the specification of the ’300 patent,
including the problems that the invention was designed
to address, the description of the invention, language
providing that “[i]n all embodiments, the invention
includes mechanical means for selectively locking the
rear sole relative to the rear sole support and upper
of the shoe,” and the description of the manner for
connecting a rear sole to a rear sole support. Ultimately, the Court construed the ’300 patent’s claim
terms’ reference to a rear sole “secured” to mean “a
rear sole selectively or permanently fastened, but not
permanently fixed in position.” Akeva, 2005 WL
6225278. Like the ’126 patent in the present case,
the specification of the ’300 patent included language
that provided that “[t]he flexible region also need not
be used only in conjunction with a detachable rear
sole, but can be used with permanently attached rear
soles as well.” Id. The Court concluded that “[t]his
statement excludes only the detachability feature, one
which the court does not read into the claim term,
and does not address the movability of the rear sole.”
Id. This Court in the present case likewise concludes
that the similar language in the ’126 patent similarly
refers to a rotatable heel that is not removable.
As discussed above, on appeal in the prior litigation, the Federal Circuit found that the ’300 patent
“discloses athletic shoes with extended life by
improving the rear sole such that the rear sole is
rotatable, detachable, or both.” Akeva, 208 F. App’x at
864. The Federal Circuit concluded that “one skilled
in the art reading the specification of the ’300 patent
specification would understand the term ‘secured’

App.46a
as used in the ’300 patent to mean shoes with rear soles
that are secured to the shoe, but not permanently
fixed.” Id. at 865. This Court reaches the same conclusion with respect to the same claim terms in the ’126
patent, and the prior determination regarding the ’300
patent further supports the Court’s conclusions in
this case.
Finally, the Court notes that this conclusion is
also supported by Akeva’s own position regarding the
’126 patent in the prior suit. Specifically, in the prior
suit, according to the Federal Circuit’s decision in
that case, Akeva argued that the ’126 patent “claims
a ‘detachably secured’ rear sole, and a rear sole that
allows for ‘selective rotation’ and that this supports
its claim that such soles are not the claimed invention
of the ’300.” Akeva, 208 F. App’x at 864-65. The
Federal Circuit concluded that the ’300 patent was
narrower than Akeva alleged, and in light of that
history and the analysis set out above, there is no basis
to now conclude that the ’126 patent is broader than
what Akeva argued in the prior case.
Having so concluded, the Court notes that the
Parties agree that none of the allegedly infringing
shoes in the present case have a detachable or
rotatable rear sole, or a sole that is not permanently
fixed in position. Therefore, based on the claim construction set out above, the Counterclaim Defendants
would be entitled to judgment as a matter of law of
non-infringement as to the ’126 patent. The Court
therefore need not proceed with claim construction
as to any of the remaining disputed terms in the ’126
patent.

App.47a
D. The Continuation Patents
The Continuation Patents (the ’269 patent, the
’130 patent, the ’350 patent, and the ’099 patent) are
all descendants of the ’126 patent and the ’300 patent.
In the ’269 patent, the disputed claim describes a
shoe comprising “a rear sole below the heel region of
the upper, the rear sole including a first layer of
material that is at least in part ground-engaging and
a second layer of material located at least in part
above and in contact with the first layer of material.”
(Patent ’269 [Doc. #292-2], Claim 1.) The claim also
describes a “flexible plate . . . between at least a portion of the rear sole and at least a portion of the heel
region of the upper,” and “an opening in the rear
sole.” (Id.)
In the ’130 patent, the challenged claims are
Claim 6 and Claim 19, which both incorporate Claim
1. Claim 1 describes “a shoe comprising: a bottom; a
major longitudinal axis; an upper; a sole including an
outsole and a midsole, the sole being beneath at least
a portion of the upper; a plate having an upper surface,
a lower surface, an interior portion and peripheral
portions . . . ; at least one opening in the shoe . . . ; and
at least one rib. . . . ”
The challenged claims in the ’350 patent are
based on Claim 14 describing “[a] shoe comprising:
an upper having a heel region; a rear sole permanently
attached and non-rotatable below the heel region of
the upper; a flexible plate having upper and lower
surfaces and supported between at least a portion of
the rear sole and at least a portion of the heel region
of the upper . . . ; and at least one inflated cushion
positioned beneath at least a portion of the flexible
plate”, as well as similar language regarding a rear

App.48a
sole “permanently attached and non-rotatable” in Claim
116, Claim 155, Claim 201, and Claim 239.
Finally, the challenged claims in the ’099 patent
also describe “[a]n assembly of footwear elements for
use with an athletic shoe, the assembly comprising:
an upper having an arch region and a heel region; a
supporting structure; a flexible plate . . . ; a heel support
integral with the flexible plate . . . ; and an arch
bridge . . . [and] wherein the rear sole is permanently
attached and not rotatable.”
Thus, at least two of the Continuation Patents
include claim language explicitly covering rear soles
that are permanently attached and not rotatable.
However, the Court need not undertake further claim
construction as to the Continuation Patents because
the Court concludes that Defendants are entitled to
summary judgment as to the Continuation Patents
for the reasons set out below.
Each of the Continuation Patents is a continuation
of the ’300 patent construed in the prior litigation. “A
continuation application claims the same invention
claimed in an earlier application” and the application
constitutes “one continuous application for the continuing subject matter recited therein.” Transco Prods.
Inc. v. Performance Contracting, Inc., 38 F.3d 551,
555 (Fed. Cir. 1994) (emphasis in original) (quotation
omitted).2 In addition, each of the Continuation
2 The Federal Circuit further explained as follows:
[T]here are various types of “continuing” applications
that one may file at the PTO. See The Manual of Patent
Examining Procedure (MPEP), §§ 201.03-201.13 (1988);
D. Chisum, Patents, § 13 (1985 rev.); P. Rosenberg,
Patent Law Fundamentals, § 15.02[3] (1991). An

App.49a

applicant may file a continuation, divisional, or
continuation-in-part (CIP) application of a prior
application, all of which the PTO characterizes as
“continuing” applications. See MPEP § 201.11. In
general, a continuing application is one filed during
the pendency of another application which contains
at least part of the disclosure of the other application
and names at least one inventor in common with
that application.
“Continuation” and “divisional” applications are alike
in that they are both continuing applications based
on the same disclosure as an earlier application.
They differ, however, in what they claim. A “continuation” application claims the same invention claimed
in an earlier application, although there may be some
variation in the scope of the subject matter claimed.
See MPEP § 201.07. A “divisional” application, on the
other hand, is one carved out of an earlier application
which disclosed and claimed more than one independent invention, the result being that the divisional
application claims only one or more, but not all, of
the independent inventions of the earlier application.
See MPEP § 201.06. A “CIP” application is a continuing
application containing a portion or all of the disclosure of an earlier application together with added
matter not present in that earlier application. See
MPEP § 201.08.4 The term “parent” is often used to
refer to the immediately preceding application upon
which a continuing application claims priority; the
term “original” is used to refer to the first application
in a chain of continuing applications. See MPEP
§§ 201.04, 201.04(a).
The PTO has noted that the expressions “continuation,”
“divisional,” and “continuation-in-part” are merely
terms used for administrative convenience. See MPEP
§ 201.11. As explained more fully in section II.B.
below, the bottom line is that, no matter what term
is used to describe a continuing application, that
application is entitled to the benefit of the filing date

App.50a
Patents includes language incorporating the ’300 patent
by reference, and where prior patents are incorporated
by reference, “[t]he incorporated patents are ‘effectively
part of the host [patents] as if [they] were explicitly
contained therein.’ . . . As a result, the disclaimers of
the incorporated patents are part of the asserted
patents.” X2Y Attenuators, LLC v. International Trade
Comm’n, 757 F.3d 1358, 1362-63 (Fed. Cir. 2014)
(quoting Telemac Cellular Corp. v. Topp Telecom, Inc.,
247 F.3d 1316, 1329 (Fed. Cir. 2001) (some internal
citations omitted); see also Trustees of Boston Univ.
v. Everlight Elecs. Co., Ltd., 23 F. Supp. 3d 50, 63 (D.
Mass. May 20, 2014) (“Because the inventor limited the
scope of the term for a parent application from which
the patent-at-issue is a continuation, the limitation
applies with equal force to the [continuation] patent.”);
Cordis Corp. v. Boston Scientific Corp., 658 F.3d 1347,
1356 n.5 (Fed. Cir. 2011) (“[A] disclaimer in the parent
application carries forward into the construction of
the same claim term in the child.”) Thus, under this
general principle, the disclaimer of scope found in
the prior Akeva litigation would apply to the Continuation Patents.
However, Akeva argues that for all of the asserted
Continuation Patents, it rescinded the disclaimer found
in the specification of the ’300 patent in the prior
litigation. Defendants dispute that this is legally
possible, and argue that even if it were possible,
Akeva’s actions in the Patent Office did not successfully
rescind the disclaimer. Defendants further argue that
of an earlier application only as to common subject
matter.

Transco, 38 F.3d at 555-56.

App.51a
if the Court finds that Akeva successfully rescinded
the disclaimer, the claims are invalid because (1)
Akeva necessarily has added “new matter” to the
patent causing the claims to be invalid under 35 U.S.C.
§ 132(a), (2) the asserted claims are invalid for failure
to satisfy the written description requirement of 35
U.S.C. § 112, and (3) the asserted claims are invalid
under 35 U.S.C. § 102(b) because the asserted claims
would have priority dates in 2003 and 2004, and Nike
sold accused shoes more than one year before those
priority dates. (Supp. Br. [Doc. #305] at 8.)
In some instances, it is possible to rescind a
disclaimer previously found in an earlier patent so that
the continuation patents are not bound by the
disclaimer. See Hakim v. Cannon Avent Grp., PLC,
479 F.3d 1313, 1318 (Fed. Cir. 2007) (“[A] disclaimer
made during prosecution can be rescinded, permitting
recapture of the disclaimed scope.”); X2Y Attenuators,
757 F.3d at 1363 (noting that “incorporation by reference does not convert the invention of the incorporated
patent into the invention of the host patent,” and “it
is certainly possible that a clear and unmistakable
disavowal in an incorporated patent is no longer so
when placed in the context of the disclosure of the
host patent” (internal quotations omitted)). In the
context of a prosecution disclaimer, to effectively
rescind the disclaimer, “the prosecution history must
be sufficiently clear to inform the examiner that the
previous disclaimer, and the prior art that it was
made to avoid, may need to be revisited.” Hakim, 479
F.3d at 1318; see also Luv N’ Care, Ltd. v. Koninklijke
Philips Elec. N.V., No. 2:11CV512, 2013 WL 3471269,
at *6-10 (E.D. Tex. July 9, 2013).

App.52a
Akeva relies upon the Declaration of Thomas
Martin [Doc. #293-10] to show the steps that it took
to attempt to rescind the disclaimer in the ’300
patent. The Continuation Patents were filed in 2003
and 2004 In 2005 and 2006, Akeva amended the
claims and modified the specifications in amendments
submitted to the Patent and Trademark Office (PTO)
with the intent of rescinding the disclaimer found in
the ’300 patent. Akeva “amended the specification to
make it clear that the presently claimed invention is
not limited to a rotatable or detachable rear sole.”
(Akeva Br. Att., e.g., Ex. F-2 at 14 [Doc. #293-15].)
Akeva also filed Information Disclosure Statements
(“IDS”) with the PTO, attaching the opinions of the
district court in this District in the prior litigation
and advising the PTO that “the ’300 patent is the
subject of litigation in the United States District
Court for the Middle District of North Carolina.” (Id.,
e.g., Ex. F-3.) It drew the attention of the PTO to the
term “secured,” the term through which this Court
found a disclaimer, and stated that “[i]t has been
Applicant’s intent, in this application and in prior
applications, for the term ‘secured’ to have its ordinary
meaning, i.e., fastened or attached.” (Id., e.g., Ex. F-3
at 2.) The PTO issued a Notice of Allowance in which
the examiner stated that “the following statement is
considered to be necessary to clarify the meaning of the
term ‘secured’ as used and understood by the Examiner
when allowing claims including this language. The
Examiner has considered the Memorandum Opinion
and Order of the North Carolina Court, and in allowing
these claims has construed the term ‘secured’ in this
pending application (as in the prior applications) to
have its ordinary meaning.” (Notice of Allowability,
Ex. I [Doc. #306-9], at 3.)

App.53a
However, rescinding a specification disclaimer
would effectively broaden the scope of the Continuation
Patents beyond that set out in the ’300 patents. As
discussed above, this Court previously found, and the
Federal Circuit specifically concluded, that the ’300
patent does not disclose, and clearly disclaims and
disavows, rear soles that are not detachable, rotatable,
or both. This Court will not revisit the prior determination regarding the ’300 patent. Akeva nevertheless
contends that the Continuation Patents could still
claim priority based on the ’126 patent, effectively
“skipping” over the ’300 patent back to the ’126
patent. On this issue, the Parties have debated at
length whether Akeva could rescind the disclaimers
found in the ’300 patent to reclaim alleged scope in
an earlier grandparent, here the ’126. However, it
appears that this would effectively break the chain of
priority with respect to subject matter that was disclaimed in the ’300 patent, and would mean that the
Continuation Patents involved “new matter” that
could not claim the benefit of the earlier filing date
and would face potential invalidity under 35 U.S.C.
§ 102 and § 103. Cf. Moy’s Walker on Patents § 3:58
(noting that “by omitting parts of the parent application
from the continuation, the inventor is taken as having
allowed the aspects of the patenting transaction
associated with the omitted parts to have ended. One
consequence of this rule is that the presence of the
omitted subject matter in the parent application
cannot be relied upon to support the adequate disclosure of any claims presented in the continuation.
Any attempts by the applicant to reintroduce the
canceled subject matter back into the disclosure of
the continuation are judged under the prohibition
against new matter.”); Anascape, Ltd. v. Nintendo of

App.54a
Am. Inc., 601 F.3d 1333, 1338-39 (holding that removing limitations in the description of a continuation
patent resulted in inclusion of “new matter” not
entitled to the priority date of the prior application);
Hakim, 479 F.3d at 1317 (noting that if a patent
applicant attempts to include broader claims in a
continuation patent, “entitlement to an earlier filing
date for any claimed subject matter may of course be
necessary to avoid a statutory bar created by intervening events outlined in 35 U.S.C. §§ 102 and 103”);
Hollmer v. Harari, 681 F.3d 1351, 1355-58 (Fed. Cir.
2012) (“Thus, if any application in the priority chain
fails to make the requisite disclosure of subject
matter, the later-filed application is not entitled to
the benefit of the filing date of applications preceding
the break in the priority chain.”); Zenon Envtl., Inc.
v. U.S. Filter Corp., 506 F.3d 1370, 1379 (Fed. Cir.
2007) (noting that to claim the benefit of an earlier
ancestor, “continuity of disclosure must have been
maintained throughout a chain of patents”); Lockwood
v. American Airlines, Inc., 107 F.3d 1565, 1572 (Fed.
Cir. 1997) (holding that “[e]ach application in the
chain must describe the claimed features” and that if
“one of the intervening applications does not describe”
the subject matter, the later application cannot claim
the benefit of the earlier application).
Moreover, even if it were possible to skip over
the ’300 patent to reclaim scope in the ’126 patent, as
Akeva contends, the Court has considered the specification of the ’126 patent at length as part of the
claim construction set out above, and concluded that
the ’126 patent does not disclose, and clearly disclaims
and disavows, rear soles that are non-detachable or
non-rotatable. Thus, if Akeva successfully rescinded

App.55a
the specification disclaimer, it necessarily added
“new matter” to the specifications of the Continuation Patents, and it cannot claim priority as to that
new matter based on the ’300 or ’126 patents. See
Anascape, Ltd., 601 F.3d at 1338 (applicant added
“classical new matter” by removing limitation from
parent application); Neutrino Dev. Corp. v. Sonosite,
Inc., 423 F. Supp. 2d 673 (S.D. Tex. 2006) (granting
summary judgment of invalidity based on new matter).
The Court does note that, ordinarily, the fact that
the Patent Office has allowed an amendment without
objection “is entitled to an especially weighty presumption of correctness” when the patent is later
challenged based on the introduction of “new matter.”
Commonwealth Scientific & Indus. Research Org. v.
Buffalo Tech., Inc., 542 F.3d 1363, 1380 (Fed. Cir.
2008). In the particular circumstances of the asserted
patents of this case, however, the Court notes that
the examiner allowed the amendments and did not
consider them “new matter” because she “construed
the term ‘secured’ in [the Continuation Patent application] (as in the prior applications) to have its ordinary
meaning.” (Notice of Allowability [Doc. #306-9], at 3.)
This same examiner was the primary examiner on the
prior application for the ’300 patent and each of the
asserted Continuation Patents, which means that her
construction of ‘secured,’ at least for the ’300 patent,
is directly at odds with the construction given that
term by this Court and the Federal Circuit in the
previous Akeva litigation. As discussed above, in the
prior litigation, the Court specifically concluded that
“secured” was not construed to have its ordinary
meaning. Either the examiner did not understand
that from the information Akeva provided, or never-

App.56a
theless continued with a contrary determination. Given
the direct conflict between the examiner’s determination and reasoning and the prior holdings of this Court
and the Federal Circuit on this issue, the presumption
of correctness to the Patent Office’s decision to allow
the amendments at issue is inapposite in the particular
circumstances of this case.
E. Summary Judgment Analysis
Defendants move for summary judgment pursuant
to Federal Rule of Civil Procedure 56 against Akeva
as to each of the five patents and 30 claims that Akeva
asserted against them in this action. (Motion [Doc.
#298] at 2.) Akeva has admitted that all of Defendants’
accused shoes have traditional, permanently fixed rear
soles. (Doc. #130, #187, #193 at Countercl. ¶¶ 21-22
(Nike); Doc. #186, #192 at Countercl. ¶¶ 18-19 (Adidas).
Summary judgment is appropriate only when no
genuine issue of material fact exists. Shealy v. Winston,
929 F.2d 1009, 1011 (4th Cir. 1991). A genuine issue
of fact exists if the evidence presented could lead a
reasonable fact-finder to return a verdict in favor of
the non-moving party. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 255 (1986). A court considering a motion
for summary judgment must view all facts and draw
all reasonable inferences from the evidence before it
in a light most favorable to the non-moving party. Id.
The proponent of summary judgment “bears the
initial burden of pointing to the absence of a genuine
issue of material fact.” Temkin v. Frederick Cnty.
Comm’rs, 945 F.2d 716, 718 (4th Cir. 1991) (citing
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)). If
the movant carries this burden, then the burden “shifts
to the non-moving party to come forward with facts

App.57a
sufficient to create a triable issue of fact.” (Id. at 71819 (citing Anderson, 477 U.S. at 247-48).) A mere
scintilla of evidence supporting the non-moving party’s
case is insufficient to defeat a motion for summary
judgment. See, e.g., Shaw v. Stroud, 13 F.3d 791, 798
(4th Cir. 1994); see also Anderson, 477 U.S. at 248
(non-moving party may not rest upon mere allegations
or denials.) In patent cases, “[w]here the parties do
not dispute any relevant facts regarding the accused
product, . . . but disagree over possible claim interpretations, the question of literal infringement collapses
into claim construction and is amenable to summary
judgment.” General Mills, Inc. v. Hunt-Wesson, Inc.,
103 F.3d 978, 983 (Fed. Cir. 1997).
In the present case, the Court’s claim construction
determinations drive the summary judgment analysis.
The Court has determined that the term “rear sole
secured” in the ’126 patent should be construed to
mean “rear sole selectively or permanently fastened,
but not permanently fixed into position,” in light of how
a person of ordinary skill in the art would understand
the term in the context in which it is used and in
light of the specification, and would not include shoes
with rear soles that are permanently attached and
non-rotatable. As noted above, Akeva has conceded
that all of the allegedly infringing products of Defendants have permanently attached and non-rotatable
rear soles. Therefore, summary judgment is appropriate
in favor of Defendants as to Akeva’s claims that
Defendants have infringed its ’126 patent.
As to the asserted Continuation Patents (the ’130,
’269, ’350, and ’099 patents), the Court concludes that
there are no genuine issues of material fact in light
of the analysis set out above. The specification of the

App.58a
’126 patent cannot reasonably be read to describe an
invention that includes non-detachable, non-rotatable
rear soles, and no reasonable jury could find that a
person of ordinary skill in the art could conclude that
the ’126 patent discloses non-detachable, non-rotatable
rear soles. Akeva admitted during this Court’s prior
motion hearing that if the specification of the ’126
patent is limited to detachable or rotatable soles and
excluding conventional soles, it would “have a hard
time coming up with disclosure to support the claims
of the Continuation Patents.” (Tr. of Hearing [Doc.
#306-1], at 51.) In the supplemental briefing, Akeva
acknowledged that “if the ’126 Patent does not have
written description support to cover conventional rear
soles, then either the Continuation Patents cannot
claim priority back to the ’126 Patent, or the Continuation Patents themselves would not have written
description support for conventional rear soles.” (Supp.
Resp. [Doc. #306].) Finally, it is undisputed that Nike
sold allegedly infringing shoes with non-detachable,
non-rotatable rear soles more than one year prior to
the 2003 and 2004 applications for the Continuation
Patents. Thus, because the Continuation Patents
cannot claim priority based on the ’300 or ’126 patents
for conventional, non-detachable, non-rotatable rear
soles, the Continuation Patents are invalid under
35 U.S.C. § 102 to the extent that they purport to
include shoes with conventional, non-detachable, nonrotatable rear soles. See 35 U.S.C. § 102; Vanmoor v.
Wal-Mart Stores, Inc., 201 F.3d 1363, 1366 (Fed. Cir.
2000); Evans Cooling Sys., Inc. v. Gen. Motors Corp.,
125 F.3d 1448, 1451 (Fed. Cir. 1997). As noted above,
Akeva has conceded that all of the allegedly infringing
products of Defendants have permanently attached
and non-rotatable rear soles, so there is no basis on

App.59a
which a jury could find that Defendants’ products
infringe any valid claims. Thus, Defendants are entitled
to summary judgment as to all of Akeva’s claims in
this case.
In light of this determination, the Court will
recommend that Defendants’ Motion for Summary
Judgment be granted on Akeva’s claims of patent
infringement, and that Akeva’s infringement claims
be dismissed. Having reached this determination,
the Court need not reach the additional issues and
defenses raised by Defendants.
The Court notes that given the extended history of
this case and the related patents, and given the Court’s
uncertainty regarding the status of the mediation
and settlement discussions as to the remaining claims,
the Court will extend the stay in this case for 30 days
and will direct the remaining parties to confer with
one another and with the mediator to determine
whether any further mediation is worthwhile before
preparing objections and any other appeals of the
present Recommendation. The parties may request
that the stay be extended to accommodate further
mediation, but if no such request is filed, objections
will be due on May 13, 2019, which is 14 days after the
stay expires.
IT IS THEREFORE RECOMMENDED that with
respect to the ’126 patent, the term “rear sole secured”
be construed to mean “rear sole selectively or permanently fastened, but not permanently fixed into
position,” which would not include conventional rear
soles that do not either detach or rotate.
IT IS FURTHER RECOMMENDED that Defendants’ Motion for Summary Judgment [Doc. #298] and

App.60a
Supplemental Motion for Summary Judgment [Doc.
#304] be granted as to Akeva’s infringement claims,
and that Akeva’s Third Amended Counterclaim for
Patent Infringement be dismissed with prejudice.
IT IS ORDERED that the stay in this case is
extended until April 28, 2019, and the remaining
parties are directed to confer with one another and
with the mediator to determine whether any further
mediation is worthwhile before preparing objections
and any other appeals of the present Recommendation.
The parties may request that the stay be extended to
accommodate further mediation, but if no such request
is filed, objections will be due on May 13, 2019.
This, the 29th day of March, 2019.
/s/ Joi Elizabeth Peake
United States Magistrate Judge

